            Audit Report




Improper Use of Children’s Social
       Security Numbers




      A-03-12-21269 | March 2014
MEMORANDUM


Date:      March 31, 2014                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Improper Use of Children’s Social Security Numbers (A-03-12-21269)

           The attached final report presents the results of our audit. Our objective was to determine
           whether employees were improperly using children’s Social Security numbers for work
           purposes.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Improper Use of Children’s Social Security Numbers
A-03-12-21269

March 2014                                                                  Office of Audit Report Summary

Objective                                    Our Findings

To determine whether employees were          In Tax Years (TY) 2007 to 2010, about 37,700 employers reported
improperly using children’s Social           approximately $1 billion in wages using the names and SSNs
Security numbers (SSN) for work              assigned to 36,546 children ages 13 and younger. Of these
purposes.                                    36,546 children, SSA’s records indicated that 36,181 were alive and
                                             365 were deceased when the wages were earned. From the
Background                                   population of children who were living, we sampled 100 children
                                             and 100 employers for detailed review. For the deceased children,
As part of the Annual Wage Reporting         we reviewed all 365 children.
process, the Social Security
Administration (SSA) verifies the            For our sampled cases, the majority of children who were alive
names and SSNs on Wage and Tax               appeared to have legitimate work activity, whereas the majority of
Statements (Form W-2) to ensure the          deceased children’s identities had been misused for work purposes.
reported name and SSN is accurate            Our sample of 100 living children revealed 71 were legitimately
before SSA posts the information from        working and had earned approximately $30 million in wages in
the W-2 to the Master Earnings File.         TYs 2007 to 2010. Of the remaining 29 cases, 8 were related to
When SSA’s data indicate a wage              SSN misuse, 6 were related to edit routine errors, and 15 were
earner is a child age 6 or younger, SSA      related to enumeration errors. For the 100 sampled employers, the
places the earnings in the Earnings          findings were similar. We found 66 employers had legitimately
Suspense File (ESF), a repository for        employed children while 34 employers reported wages involving
unmatched wage items, and assigns a          SSN misuse and enumerations errors. Additionally, 362 of the
Young Children’s Earnings (YCER)             365 deceased children’s cases involved SSN misuse. These
indicator. SSA mails notices to              children had about $9 million in wages reported by employers that
employers and employees to confirm           did not typically employ children.
the children legitimately earned the
wages. However, SSA does not have a          Although many of the employers involved with the SSN misuse
process for children between ages            cases were registered to use the Social Security Number
7 and 13. SSA posts these children’s         Verification Service (SSNVS), they may not have been aware they
wages to their earnings records.             verified SSNs that belonged to children under age 14 because the
                                             date of birth is not mandatory for verification.
In addition, if the data include a date of
death, SSA places in the ESF all the         Our Recommendations
earnings reported after the year of
death and assigns an Earnings After          We recommended SSA (1) review the 13 cases related to date of
Death indicator. SSA sends notices to        birth (DoB) errors and initiate appropriate actions to correct the
the employers and employees to               DoB; (2) review the six cases where SSA’s edit routines incorrectly
confirm employment.                          reinstated an ESF wage item to a child’s record and initiate
                                             appropriate actions to remove the wages from the Master Earnings
                                             File; and (3) add a verification response code to SSNVS to notify
                                             employers when a child’s SSN has been submitted for verification.

                                             SSA agreed with our recommendations.
ABBREVIATIONS
AWR                  Annual Wage Reporting

DoB                  Date of Birth

DoL                  Department of Labor

ESF                  Earnings Suspense File

MEF                  Master Earnings File

OIG                  Office of the Inspector General

SSA                  Social Security Administration

SSN                  Social Security Number

SSNVS                Social Security Number Verification Service

TY                   Tax Year

YCER                 Young Children’s Earnings Record

Forms
1099-MISC            Miscellaneous Income

SS-5                 Application for a Social Security Card

W-2                  Wage and Tax Statement




Improper Use of Children’s Social Security Numbers (A-03-12-21269)
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     Child Labor Guidance ................................................................................................................1
     Social Security Number Verification Service ............................................................................2
Scope and Methodology ..................................................................................................................2
Results of Review ............................................................................................................................3
     Children Who Were Alive When the Wages Were Earned .......................................................4
           Children Sample Cases ........................................................................................................4
           Employer Sample Cases ......................................................................................................6
     Children Who Were Deceased When the Wages Were Earned ................................................6
     Social Security Number Verification Service ............................................................................8
Conclusions ......................................................................................................................................9
Recommendations ..........................................................................................................................10
Agency Comments .........................................................................................................................10
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Major Contributors.............................................................................................. C-1




Improper Use of Children’s Social Security Numbers (A-03-12-21269)
OBJECTIVE
Our objective was to determine whether employees were improperly using children’s Social
Security numbers (SSN) for work purposes.

BACKGROUND
As part of the Annual Wage Reporting (AWR) process, 1 the Social Security Administration
(SSA) verifies the names and SSNs on Wage and Tax Statements (Form W-2) against the
Numident 2 to ensure the reported name and SSN is accurate before the information from the W-2
is posted to the Agency’s Master Earnings File (MEF). 3

When the Numident indicates a wage earner is a child age 6 or younger, SSA places the wages in
the Earnings Suspense File (ESF), a repository for unmatched wage items, and assigns a Young
Children’s Earnings Record (YCER) indicator. 4 SSA mails notices to employers and employees
to confirm the children earned the wages. 5 However, SSA does not have a process for children
between ages 7 and 13. If the Numident indicates the wage earner is a child age 7 or older, SSA
posts the earnings to the MEF if the name and SSN on the W-2 match SSA’s records. In
addition, if the Numident contains a date of death, SSA places all the earnings reported after the
year of death in the ESF and assigns an Earnings After Death indicator. SSA sends notices to the
employers and employees to confirm employment.

Child Labor Guidance
The Department of Labor (DoL) allows children of any age to work in the entertainment
industry, work for their parents, deliver newspapers, and babysit or perform minor chores in a
private home. In addition, the DoL guidance allows for limited work performed by 12- and
13-year-olds. For example, a child age 12 or 13 may be employed in the agricultural industry
outside school hours with written parental consent. 6




1
    See Social Security Act § 205 (c)(2)(A), 42 U.S.C. § 405(c)(2)(A).
2
  The Numident includes identifying information (such as name, date of birth [DoB], mother’s maiden name, etc.)
provided by the applicant on his/her Application for a Social Security Card (Form SS-5), original SSN and
replacement SSN cards.
3
 The MEF contains all earnings data reported by employers and self-employed individuals. These data are used to
calculate the Social Security benefits due an individual with an earnings record.
4
    SSA, POMS, RM 03870.065 (October 21, 1994).
5
    SSA, POMS, ER 00701.040 (April 8, 2010).
6
    29 C.F.R. §§ 570.122, 570.2 and 579.3.



Improper Use of Children’s Social Security Numbers (A-03-12-21269)                                                1
Social Security Number Verification Service
In 2005, SSA implemented the Social Security Number Verification Service (SSNVS), a free
verification program that allows registered companies (employers and submitters) to verify
employees’ names and SSNs against SSA’s records before they submit W-2s to SSA.
Employers who want to verify an employee, must enter the Employer Identification Number,
SSN, first name, and last name. The DoB is optional.

SCOPE AND METHODOLOGY
As shown in Table 1, in Tax Years (TY) 2007 to 2010, 37,703 employers reported approximately
$1 billion in wages using the names and SSNs assigned to 36,546 children ages 13 and younger.
Specifically, 37,074 employers reported $1 billion in wages for 36,181 children who were alive
when the wages were earned, and 629 employers reported about $9 million in wages for
365 children who were deceased when the wages were earned.

           Table 1: Children with Wages Posted to MEF and ESF for TYs 2007 to 2010
                                         Number of               Number of
                    Status                                                               Total Wages
                                          Children               Employers
                    Alive(a)                 36,181                37,074(b)              $1,005,745,664
                   Deceased                     365                   629(b)                    8,772,446
                     Total                   36,546                  37,703               $1,014,518,110
         Note:
                 (a) The MEF contained about $918 million in wages related to 34,856 children and the ESF contained
                 approximately $88 million in wages related to 1,649 children.
                 (b) There are 252 employers included in both populations.

To accomplish our objective, we examined the AWR and employer verification processes as well
as selected cases for review. We reviewed all 365 deceased children’s cases to determine
whether someone else used their identities for work purposes. 7 From the population of children
who were alive, we selected a sample of 50 who had the highest reported wages in TYs 2007 to
2010 and 50 children who had the highest number of employers.

As shown in Table 2, 146 employers reported that the children with the highest wages earned
about $37 million in wages. For the children with the highest number of employers,
369 employers reported that the children earned about $10 million in wages. Additionally, we
reviewed a sample of 50 employers with the highest reported wages for children, and
50 employers with the highest number of children’s SSNs. The 50 employers with the highest
wages reported that 4,419 children earned about $140 million in wages. The 50 employers with


7
    See Appendix A for further discussion of our scope and methodology.



Improper Use of Children’s Social Security Numbers (A-03-12-21269)                                                2
the highest number of children’s SSNs reported that 4,301 children earned about $118 million in
wages.

                                     Table 2: Sample Population
                                                                   Total            Total
               Sample Population           Total Wages
                                                                  Children        Employers
              Children
              Highest earnings            $36,767,204(a)                 50              146
              Most employers               10,362,074(b)                 50              369
                       Total                $47,129,278              100(e)              515
              Employers
              Highest earnings          $139,593,337(c)               4,419                  50
                                                        (d)
              Most children               118,127,105                 4,301                  50
                       Total               $257,720,442             8,720(f)             100
              Notes:
                   (a) The $36,767,204 in wages was posted to the MEF.
                   (b) Of the $10.4 million, about $10.3 million was posted to the MEF and
                       about $36,272 was posted to the ESF.
                   (c) Of the $140 million, $135 million was posted to the MEF and about
                       $5 million was posted to the ESF.
                   (d) Of the $118 million, about $116 million was posted to the MEF and about
                       $3 million was posted tot ESF.
                   (e) We identified six children’s SSNs with $3.9 million in reported wages
                       included in both populations. Thus, we reviewed 94 unique children’s
                       SSNs.
                   (f) We identified 23 employers that submitted $120 million in wages that was
                       included in both sample populations. Therefore, we reviewed 77 unique
                       employers.


RESULTS OF REVIEW
Overall, of the cases we reviewed, the majority of children who were alive appeared to have
legitimate work activity whereas the majority of deceased children’s identities were misused for
work purposes. Our sample of 100 children revealed that 71 were legitimately working and
collectively earned about $30 million in wages in TYs 2007 to 2010. Of the remaining 29 cases,
8 related to SSN misuse, 6 related to edit routine errors, and 15 related to enumeration errors. Of
the 100 sampled employers, 66 had legitimately employed children who collectively earned
about $214 million in wages during the 4-year period. The employers were in the entertainment
industry. We found that 29 employers reported wages for individuals who were misusing
children’s identities for work purposes. These employers were in industries that did not typically
hire children under age 14, such as accommodation (that is, hotels and motels) and food service.

Improper Use of Children’s Social Security Numbers (A-03-12-21269)                                3
The five remaining employers reported legitimate work activity for adults but SSA erroneously
listed their DoBs on the Numident making them appear to be children.

Of the 365 deceased children’s cases, it appeared that 362 involved potential SSN misuse. The
children, who ranged in age from 1-day- to 13-years-old when the wages were earned, had about
$9 million in wages reported by employers that did not typically employ children. We found that
64 percent of these employers was in such industries as business, administrative, and support;
accommodation and foodservice; and construction. Further, in 59 cases, there were indications
that the parents of the deceased children may have misused the child’s identity for employment.

In addition, although many of the employers that reported wages involving SSN misuse were
registered to use SSNVS, these employers may not have been aware that they had verified SSNs
belonging to children under age 14 because the DoB is not mandatory for verification.

Children Who Were Alive When the Wages Were Earned
Children Sample Cases
Based on our review of 100 children who had the highest wages or highest number of employers,
we found the following.
                                                  Figure 1: Children Sample
 Seventy-one cases related to
   children who appeared to have
   legitimate work activity. These
   children earned about
   $30 million in wages reported by
   employers that normally hired
   children. Most of the employers
   were in the entertainment
   industry.

   Fifteen cases related to
    individuals who were adults but
    whose DoBs were erroneous on
    the Numident or MEF, making
    them appear to be children.
    About $14 million in wages were
    reported for these individuals. In
    14 of these cases, either SSA
    staff entered, or the individuals
    provided, incorrect DoBs when




Improper Use of Children’s Social Security Numbers (A-03-12-21269)                              4
    the individuals requested an original or replacement SSN card. 8 For a majority of the cases,
    it appears the year the SSN card was issued was erroneously entered into the enumeration
    system as the year of birth, which made it appear the adults were children. For example, we
    found a case where the DoB for an executive with an entertainment-related organization was
    changed from 1959 to 1996, the year he received an SSN card. He was not a U.S. citizen and
    had requested an SSN to work in the United States. The erroneous DoB made it appear he
    was ages 11 through 13 in TYs 2007 to 2009 when he earned about $3 million in wages.
    Additionally, we found that he had approximately $310,000 in wages for TYs 1999 to 2002
    posted to the ESF as a YCER item because of the erroneous DoB. The remaining case
    related to an adult whose DoB was erroneously listed on the MEF as March 2000 making
    him appear to be a child. His Numident showed his DoB was December 1967. As of June
    2013, two individual’s Numident records were corrected to reflect the correct year of birth.
    Therefore, SSA needs to correct the DoBs on the Numident and MEF for the remaining
    13 numberholders because it could affect their employment.

   Eight cases appeared suspect because of the children’s age when they supposedly worked for
    employers that did not typically hire children. The children ranged in age from 3-to
    10-years-old, and these employers were in the agriculture, construction, accommodation, and
    food service industries. The employers reported that the children had earned about
    $2.7 million in wages during the 4-year period. For example, one child’s identity was
    misused over a 13-year period. The misuse started in 2000 when SSA issued the child an
    SSN and continued through 2012. During this period, an employer who distributes
    wholesale meats reported approximately $1.1 million in earnings for this child’s SSN. We
    contacted the employer who indicated they did not hire children. In reviewing the child’s
    Numident record, we found that the father and child shared the same first and last names,
    which could indicate the father had misused the child’s identity to work. We could not locate
    an SSN for the father. We referred all eight cases to our Office of Investigations for further
    review. As of March 2014, the investigators closed three cases and referred two cases to
    SSA for administrative action. The remaining three cases were pending investigation.

   Six cases related to edit routine errors. As part of the AWR, SSA uses the Single Select edit
    to resolve unmatched name and SSN data on wage reports. 9 Single Select creates up to
    89 variations of the SSN and matches them against the Numident. In doing so, it assumes the
    individual’s reported last name is correct, but some mistake was made with the SSN.


8
 SSA requires that applicants for an original SSN or replacement Social Security (SS) card complete a Form SS-5,
Application for a SS Card.
9
  The Single Select edit routine is one of the Agency’s SSN/name matching routines used to resolve unmatched
name and SSN data submitted to SSA in employers’ wage reports. The Single Select edit assumes the individual's
reported last name is correct, but some mistake has been made with the SSN. Single Select creates up to 89 possible
variations of the SSN and matches them against the Numident. If one SSN/name match is found, the earnings are
posted to the validated SSN. If no exact match is found on the last name, the Single Select edit is extended further
to search for a match on the individual’s entire name. If the SSN/name is validated through this new Extended
Single Select edit routine, the earnings are posted to that validated SSN. If the extended search fails to validate the
name and SSN, the record is marked as invalid and is posted to the ESF.



Improper Use of Children’s Social Security Numbers (A-03-12-21269)                                                    5
    Because of this routine, SSA erroneously posted about $715,000 in wages to the earnings
    records of six children. For example, in one case, a child who was born in 1997 had
    $412,000 in wages posted to earnings records for TYs 2007 to 2010. An auto-body shop
    reported the wages using a different SSN than was assigned to the child. The name and SSN
    included in the wage item did not match SSA’s record; therefore, the Single Select routine
    was run and determined the wages belonged to the child because the last names matched.
    However, the first name did not match the child, but both the first and last name matched the
    father’s name on the Numident. Therefore, it appeared the wages belonged to the father.
    SSA needs to remove the wages from the children’s earning records in these six cases
    because the improper postings could affect the children’s future Social Security benefits.

Employer Sample Cases
We reviewed 100 employers who had the highest earnings or highest number of children’s SSNs
for the 4-year period to determine whether they hired children as part of their normal business
and hiring practices. We found that 66 employers reported legitimate work activity for children.
All 66 employers were in the entertainment-related industry (that is, talent agency, production,
and payroll companies). These employers reported that about 4,000 children earned
approximately $214 million in wages during TYs 2007 to 2010.

Twenty-nine employers reported wages for children that appeared to involve SSN misuse. The
$37.8 million in wages appeared suspect because of the ages of the 977 children who supposedly
worked for employers that did not hire children under age 14. The children ranged in age from
4-months- to 13-years-old when they supposedly worked for employers in the accommodation
and food service; manufacturing; business, administrative and support; and retail and
construction industries. For example, during the 4-year period, an employer that provided
professional employer services and temporary staffing for companies reported about $1.8 million
in wages for 236 children who ranged in age from 1- to 13-years-old. We contacted the
employer, which indicated that they did not hire children. We referred these cases to our
investigators who are investigating them for SSN misuse. As of March 2014, these cases were
pending investigation.

The five remaining employers reported legitimate work activity for adults, but SSA erroneously
listed their DoBs on the Numident making them appear to be children. As stated earlier, either
SSA staff entered, or the individuals provided the incorrect DoBs when SSA issued the SSN
card. The year the SSN card was issued was erroneously listed as the year of birth.

Children Who Were Deceased When the Wages Were Earned
We found that 362 of the 365 deceased children’s cases appeared to involve SSN misuse. The
626 employers reported that the children earned about $9 million in wages for TYs 2007 to 2010.
The cases appeared suspect because of the children’s ages when the wages were earned, name
discrepancies, and the employers’ industries. The children ranged in age from 1-day-to
13-years-old when they were supposedly working, see Figure 2. Of the 362 deceased children,
326 were under age 7 when the wages were earned. In fact, 24 of the children had died at birth.
For example, a child who died at birth in June 2003 had over $136,000 in reported wages for


Improper Use of Children’s Social Security Numbers (A-03-12-21269)                               6
TYs 2007 through 2009. Two companies in the construction and manufacturing industries
reported the wages.

                                  Figure 2: Age of Deceased Children




Additionally, in 13 cases, the parents or someone who lived with the children may have used the
children’s identities for employment. These children were receiving disability benefits before
their deaths, and the addresses reported on the W-2s matched the addresses on the children’s
benefit records. For example, a child who was under 1-year-old when he died in July 2001 had
over $114,000 in wages reported for TYs 2007 through 2009 by a company in the business,
administrative, and support industry. Before his death, the child was receiving disability benefits
from SSA. Both the name and address on the W-2s matched the address in the child’s benefit
records. Further, the child and his father shared the same first and last names, and the father was
not authorized to work in the United States. Based on these factors, we believe the father, who
lived with the child, was misusing his son’s identity for work purposes after the child died.
However, because of privacy and disclosure limitations we did not share this information with
the Department of Homeland Security. 10

Furthermore, in 212 of the 362 cases, the reported names shown on the W-2s did not match
SSA’s Numident. These name discrepancies further indicate that the children’s identities were
being misused. Specifically, in 199 cases, the first name did not match the Numident, and in
13 cases, the last name did not match the Numident. In 59 of these cases, it is likely the
deceased child’s parent used the child’s identity for employment. For these cases, we found that
the reported names on the W-2s matched the parent’s names on the child’s Numident. For
example, a child who was 2-years-old when he died in January 2000 had over $119,000 in wages
reported for TYs 2007 through 2009 by a construction company. We contacted the employer
who indicated they do not hire children. The name on the W-2 did not match the child’s but did
match the father’s name shown on the Numident.



10
  Internal Revenue Code section 6103 (26 U.S.C. § 6103) provides that tax returns and return information are
confidential and may not be disclosed by the Internal Revenue Service and others having access to the information,
with certain specific exceptions.



Improper Use of Children’s Social Security Numbers (A-03-12-21269)                                                   7
The 626 employers that reported the questionable wages for the 362 deceased children were in
industries that did not typically employ children under age 14. 11 As shown in Figure 3,
64 percent of the employers was in the business, administrative, and support; accommodation
(that is hotels and motels) and food service; and construction industries.

              Figure 3: Employers that Reported Questionable Wages by Industry




In three cases, the earnings were legitimate and earned by child actors who had died. Three
employers reported that the children earned about $11,000 after their deaths. We believe the
employers used the incorrect tax form to report the earnings after death. The employers should
have reported the earnings on an Internal Revenue Service Form 1099, Miscellaneous Income,
instead of a W-2.

Social Security Number Verification Service
SSNVS assists employers in reporting wages accurately by allowing them to verify employees’
names and SSNs before they submit wages to SSA. We found 180 employers that reported
wages that involved SSN misuse were registered to use SSNVS. Of the 180 employers, 126 used
SSNVS in Calendar Year 2010 to verify the names and SSNs of their employees. However,
these employers may not have been aware that the names and SSNs they verified belonged to



11
  We referred the 362 deceased children cases to our investigators for review, who are investigating all cases that
appear to be violations of the Social Security Act. As of March 2014, the investigators closed their investigation for
8 of the 362 cases. The remaining 354 cases were pending investigation.



Improper Use of Children’s Social Security Numbers (A-03-12-21269)                                                   8
children under age 14 because the DoB was not mandatory for verification. According SSA
staff, the DoB was optional because some wage reporters only had W-2 information, which did
not contain the DoB. Additionally, making the DoB mandatory could result in decreased use of
SSNVS, causing more errors with wage reports.

We agree that making the DoB mandatory for SSNVS may discourage its use; however, SSA
should provide a response that alerts employers when they are verifying names and SSNs
assigned to children according to Agency records. This could help reduce the number of
instances of individuals misusing children’s identities for work purposes. In our October 2006
report, Effectiveness of the Young Children’s Earnings Records Reinstatement Process, 12 we
recommended that SSA modify SSNVS to detect SSNs for children under age 7 to provide
employers appropriate notice. SSA agreed with our recommendation and stated that it would
consider the cost-effectiveness of systematic changes based on other pending stewardship related
activities. As of July 2013, the Agency had not implemented our recommendation; therefore, we
are recommending again that SSA modify SSNVS to alert employers when they are verifying the
name and SSNs of minor children.

CONCLUSIONS
Based on our results, we believe individuals were improperly using children’s SSNs for work
purposes. Of the 100 children’s cases reviewed, we identified 8 cases that appeared to relate to
SSN misuse because the age of the child ranged from 3- to 10-years-old when they supposedly
worked for employers that did not typically hire children. Of the 100 employer cases,
29 reported wages for 977 children that involved SSN misuse. Furthermore, 362 of the
365 deceased children’s cases appeared suspect because of the age of the child when wages were
earned, name discrepancies, and/or employer’s industries. In a few instances, there was
indication that the parents or someone previously living with the deceased children may have
misused their identities for employment purposes.

While SSNVS was developed to assist with accurate wage reporting, by allowing employers to
verify the name and SSN of employees prior to submitting wages, we found that employers
registered to use SSNVS may not have been aware that the names and SSNs verified belonged to
children under age 14 because the DoB is not mandatory for verification. Therefore, we believe
SSA should provide a response that alerts employers when they are verifying names and SSNs
assigned to children. This could help reduce the number of instances of individuals misusing
children’s identity for work purposes.




12
 SSA OIG, Effectiveness of the Young Children’s Earnings Records Reinstatement Process (A-03-05-25009),
October 2006.



Improper Use of Children’s Social Security Numbers (A-03-12-21269)                                        9
RECOMMENDATIONS
We recommend that SSA:

1. Review the 13 cases related to DoB errors and initiate appropriate actions to correct the DoB.

2. Review the six cases where SSA’s edit routines incorrectly reinstated an ESF wage item to a
   child’s record and initiate appropriate actions to remove the wages from the MEF.

3. Add a verification response code to SSNVS to notify employers when a child’s SSN has
   been submitted for verification.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix B.




Improper Use of Children’s Social Security Numbers (A-03-12-21269)                             10
                                       APPENDICES




Improper Use of Children’s Social Security Numbers (A-03-12-21269)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed the Social Security Administration’s (SSA) policies and procedures pertaining to
    the Annual Wage Reporting process, Scrambled Wages, and Parts of the Basic Numident
    Query Response.

   Reviewed applicable Federal laws and regulations, including 29 C.F.R. §§ 570.122, 570.2
    and 579.3 for Department of Labor guidance for employment of minor children.

   Reviewed SSA’s handbooks and guidance on Enumeration Verification System, Business
    Services Online, Social Security Number Verification Service (SSNVS), and Consent Based
    Social Security Number Verification (CBSV) program.

   Interviewed Agency staff to discuss the accuracy of dates of birth on the Numident and
    verification of children with SSNVS and CBSV.

   Obtained Tax Year 2007 through 2010 Master Earnings File (MEF) and Earnings Suspense
    File (ESF) data related to children age 13 and younger.

       For children who were alive:

           The MEF contained about $918 million in wages related to 34,856 children.

           The ESF contained approximately $88 million in wages related to 1,649 children.

           We reviewed a sample of 100 children who were alive with the highest earnings or
            highest number of employers and 100 employers who had the highest earnings or the
            highest number of wage reports for children.

       For children who were deceased:

           The ESF contained about $9 million in wages related to 365 children.

           The wages were reported by 629 employers.

   Reviewed the Numident, MEF, Application for Social Security Cards, Master Beneficiary
    Record, Supplemental Security Record, Detailed Earnings Query, Summary Earnings
    Queries, Earnings Modernization Systems Release 2.8, LexisNexis, Online Retrieval System,
    and Internet Movie Database.

   Compared the SSNVS registered user list to our employer sample population.

We conducted this audit at the Philadelphia Audit Division, Philadelphia, Pennsylvania, from
March through July 2013. We tested the data obtained for our audit and determined they were
sufficiently reliable to meet our objective. The entity reviewed was SSA’s Office of Earnings,


Improper Use of Children’s Social Security Numbers (A-03-12-21269                             A-1
Enumeration, and Administrative Systems under the Office of the Deputy Commissioner for
Systems. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




Improper Use of Children’s Social Security Numbers (A-03-12-21269                              A-2
           Appendix B – AGENCY COMMENTS




                                                Social Security
MEMORANDUM


Date:      March 12, 2014                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      James A. Kissko /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Improper Use of Children’s Social Security
           Numbers” (A-03-12-21269)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Improper Use of Children’s Social Security Numbers (A-03-12-21269)                            B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “IMPROPER USE OF CHILDREN’S SOCIAL SECURITY NUMBERS”
(A-03-12-21269)

Recommendation 1

Review the 13 cases related to DoB errors and initiate appropriate actions to correct the DoB.

Response

We agree. We reviewed the 13 cases and completed the appropriate action to correct the date of
birth on the record.

Recommendation 2

Review the six cases where SSA’s edit routines incorrectly reinstated an ESF wage item to a
child’s record and initiate appropriate actions to remove the wages from the MEF.

Response

We agree. As OIG notes in its report, the Single Select edit routine assumes the name reported
on the wage item is correct, and varies the reported Social Security number (SSN) in an attempt
to find a name/SSN match. We reviewed the six cases and determined that the Single Select edit
routine handled five of the cases correctly as programmed. The remaining case was not
attributable to the Single Select edit routine, but to an Internal Revenue Service reinstatement
process.

On February 8, 2014, we expanded the Single Select edit routine criteria so that we now match
against additional name characters (for example, the first nine, rather than the first seven,
characters of the last name). Expanding the matching criteria for the Single Select edit routine
will give us greater confidence that the match is correct.

We also took the appropriate action to move the wage items for all six cases from the Master
Earnings File to the Earnings Suspense File.

Recommendation 3

Add a verification response code to SSNVS to notify employers when a child’s SSN has been
submitted for verification.

Response

We agree. We will evaluate the resources needed to add a response code to the Social Security
Number Verification Service (SSNVS) to alert employers when a child’s SSN was submitted.
We will consider this recommended enhancement while planning our information technology
(IT) development projects for fiscal year (FY) 2015. Accordingly, while this recommendation
has merit, we may not have the resources to implement it.


Improper Use of Children’s Social Security Numbers (A-03-12-21269)                               B-2
Appendix C – MAJOR CONTRIBUTORS
Cylinda McCloud-Keal, Director, Philadelphia Audit Division

Carol Madonna, Audit Manager

Virginia Harada, Audit Manager

Damon Mahoner, Auditor-in-Charge

David T. Domzalski, Auditor-in-Charge

Luis Ramirez, Audit Data Specialist

William Kearns, IT Specialist




Improper Use of Children’s Social Security Numbers (A-03-12-21269)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
